                                     SOCIAL SECURITY
MEMORANDUM

Date:   May 15, 2009                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Economic Recovery Payments for Social Security and Supplemental Security Income
        Beneficiaries (A-09-09-29143)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the Social Security Administration’s controls and procedures
        for administering the economic recovery payments authorized under the American
        Recovery and Reinvestment Act of 2009.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION


      Economic Recovery Payments
         for Social Security and
Supplemental Security Income Beneficiaries
               A-09-09-29143




                May 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                            Background
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) controls and
procedures for administering the economic recovery payments 1 authorized under the
American Recovery and Reinvestment Act of 2009 (ARRA). 2

BACKGROUND
ARRA provides for a one-time economic recovery payment of $250 to certain adult
Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) beneficiaries. 3 Individuals eligible for benefits for any of the 3 months
before the month of enactment (that is, November 2008, December 2008, and
January 2009) may receive the one-time payment. 4 If individuals receive both
OASDI and SSI, they will receive only one $250 payment.

SSA is required to certify for entitlement the economic recovery payment to qualified
beneficiaries who reside in 1 of the 50 States, the District of Columbia, Puerto Rico,
Guam, the U.S. Virgin Islands, American Samoa, or the Northern Mariana Islands. 5
The one-time payment will not be included in the monthly OASDI or SSI payments.
Instead, the $250 payment will be issued separately beginning in May 2009.

If the beneficiary’s OASDI or SSI payment is made by direct deposit, the economic
recovery payment will also be made by direct deposit. If the monthly payments are
made by check, the one-time payments will also be made by check. If a beneficiary has
a representative payee, the economic recovery payment will be disbursed to the payee
and must be used only for the beneficiary entitled to the payment.

Since the economic recovery payments are not considered OASDI or SSI payments,
they will not be applied to an OASDI or SSI overpayment. However, these payments
shall be subject to the Department of the Treasury (Treasury) offset to collect an


1
    Also referred to as stimulus payments or one-time payments.
2
    Pub. L. No. 111-5, February 17, 2009.
3
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
4
  ARRA § 2201(a)(1)(A). Eligible individuals generally include all (1) OASDI beneficiaries except children
and Medicare-only beneficiaries and (2) SSI recipients except individuals receiving Medicaid in care
facilities. See ARRA § 2201(a)(1)(B).
5
    ARRA § 2201(a)(2).



Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                      1
existing delinquent Federal or State debt. 6 In addition, ARRA provides for an economic
recovery payment to Railroad Retirement Board (RRB) and Department of Veterans
Affairs (VA) beneficiaries. RRB and VA will be responsible for certifying individuals for
payment under their respective programs. If individuals receive both OASDI or SSI
payments and RRB or VA benefits, they will receive only one $250 payment.

To administer the economic recovery payments, SSA will select all beneficiaries who
meet the eligibility criteria from its Master Beneficiary (MBR) and Supplemental Security
Records (SSR). The initial selection was performed in April 2009. Subsequent
catch-up selections will be performed through December 2010 to identify and pay
individuals whose eligibility may have been determined after the initial selection.

SSA will create and maintain a master file, called the Economic Recovery Listing, to
track the selection and payment of beneficiaries eligible for an economic recovery
payment and prevent improper and duplicate payments. SSA will first select all SSI
beneficiaries who meet the eligibility criteria. It will then select all OASDI beneficiaries
who meet the eligibility criteria and were not previously selected. Before payment
certification, SSA will determine whether any changes have occurred that may preclude
payment.

If an individual receives benefits under multiple programs, the priority order of payment
is as follows: (1) SSI, (2) OASDI, (3) RRB, and (4) VA. Each agency will process
its unique payments, prepare payment files for Treasury, annotate payments to their
program files, and prepare beneficiary notices. In addition, each agency is responsible
for any post-certification actions (for example, nonreceipt reports, returned payments,
and stop-payment actions) for the economic recovery payments issued to their
beneficiaries.

To perform this review, we interviewed SSA employees from the Offices of Systems;
Operations; Retirement and Disability Policy; and Budget, Finance, and Management.
We also reviewed available documentation to evaluate SSA’s efforts to implement and
administer the economic recovery payments. Specifically, we determined whether SSA
had established adequate controls to mitigate instances of improper payments or fraud,
waste, and abuse.




6
    ARRA § 2201(c)(4).


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)        2
                                                    Results of Review
SSA had made considerable progress toward administering the economic recovery
payments mandated under ARRA. Based on preliminary estimates, SSA is expected
to certify for entitlement about $13.25 billion in one-time payments to 53 million
beneficiaries. Under ARRA, SSA will certify these payments to facilitate Treasury’s
disbursement within 120 days after the legislation was enacted on February 17, 2009.
We found SSA had taken significant actions to properly identify eligible beneficiaries
and develop the necessary systems and policy changes to ensure payments are
disbursed in accordance with ARRA. In addition, SSA’s planned controls and
procedures should reduce the significant risk of improper payments or fraud, waste, and
abuse.

On May 7, 2009, Treasury began disbursing the economic recovery payments to
eligible beneficiaries—about 5 weeks before the statutory deadline. Before this, SSA
completed a number of actions, including (1) sending notices to about 52.2 million
eligible beneficiaries; (2) adding a webpage on its Internet site containing a video
about the payment and 34 frequently asked questions; and (3) developing a new
national 800-number network message that explained the economic recovery payment
to callers. However, at the time of our review, we identified the following matters that
SSA needed to address related to the economic recovery payments.

   SSA’s system to identify, select, and certify the economic recovery payments to
    Treasury and its related policies and procedures to administer these payments have
    not been fully developed, tested, or documented.

   Treasury may not always reclaim improper economic recovery payments to
    deceased beneficiaries and representative payees who died before SSA certified the
    payments.

   Policy has not been established for economic recovery payments issued to
    deceased beneficiaries and representative payees who died after SSA’s certification
    but before the receipt of the payments.

   Missing Social Security numbers (SSN) for beneficiaries increases the risk of
    erroneous and duplicate economic recovery payments to OASDI, SSI, RRB, and
    VA beneficiaries.

   Reporting guidance should be improved for representative payees who receive
    economic recovery payments on behalf of the beneficiaries in their care.




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)       3
SUPPORTING DOCUMENTATION FOR PROJECT IMPLEMENTATION

At the time of our review, SSA had not fully completed its planning, testing, and
development for administration of the economic recovery payments. Under ARRA,
SSA is required to certify payment entitlement and provide such information to the
Secretary of Treasury so payments can be disbursed no later than 120 days after
the date of enactment. 7 Although SSA has taken actions to meet its statutory
requirement, additional actions are necessary to ensure proper development,
testing, and implementation of SSA’s systems requirements and related policies
and procedures.

In some instances, SSA stated it had complied with project requirements but did
not provide supporting documentation. In other instances, SSA stated these
requirements were not completed and may not be fully completed until after the
May 2009 economic recovery payments are disbursed. We recognize the short time
frames for implementation of the economic recovery payments may present a significant
challenge to the Agency. However, unless the necessary planning and testing is
properly completed and documented, there is an increased likelihood that payment
errors may occur or not be detected in a timely manner, resulting in erroneous
payments to ineligible beneficiaries.

Systems Requirements

SSA is developing a new system to identify, select, and certify beneficiaries’ eligibility
for economic recovery payments for Treasury and process post-certification actions,
such as nonreceipt reports and returned payments. Based on our interviews with SSA
employees, the Office of Systems worked with RRB, VA, and other SSA components to
develop detailed selection criteria to ensure entitled beneficiaries are properly identified,
create a master file to capture payment data, and modify existing programs to provide
SSA employees with the resources necessary to process post-certification actions. On
April 15, 2009, RRB, VA, and SSA finalized their Information Exchange Agreement to
conduct the data match and exchange operation for the economic recovery payments.

SSA’s Office of Systems has an established objective to improve the predictability of
systems delivery, increase the productivity of systems staff, and improve the quality
of software products. To help meet this objective, the Systems Process Improvement
initiative was established to work within the organization to identify and implement
improved software project practices. Systems development life-cycle begins with
the system planning and analysis process and continues through system design,
development, testing, implementation, and post-implementation and ends with the
maintenance of the system. 8 Adherence to these practices is critical to the successful
implementation of quality systems software.

7
    ARRA § 2201(a)(5) and 2201(b).
8
 Including, but not limited to, the systems development plan, detailed project plan, systems testing plan,
project scope agreement, privacy impact assessment, and testing and validation results.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                         4
For the economic recovery payments, the Office of Systems has established detailed
functional requirements and initiated actions to address the systems development life
cycle requirements. However, SSA was still completing several of these requirements
at the time of our review. In some instances, SSA stated that project requirements were
completed but not fully documented. In other instances, SSA stated these requirements
were not yet completed and may not be completed until May 2009 or later.

For example, systems level testing, such as independent validation testing, is critical
to the successful implementation of quality software. All applicable software projects
must demonstrate the preparation of validation test data and validation test cases as
well as the preparation and execution of test procedures are the responsibility of a
person or group that did not develop the software. During our review, the Office of
Systems stated the testing and validation results for the economic recovery payments
were not available for review. The estimated time frame for completion is May 2009.

We recognize SSA had limited time to develop and implement these systems
requirements before nationwide implementation of the economic recovery payments.
Nevertheless, we encourage SSA to strengthen its efforts to complete these
requirements as expeditiously as possible to prevent duplicate or erroneous payments
and mitigate instances of fraud, waste, and abuse.

SSA Policies and Procedures

A key factor in SSA’s ability to provide quality service to the public is the dissemination
of program instructions that are accurate, reliable, and consistent nationwide. SSA’s
PolicyNet is designed to provide SSA employees with operating instructions to
administer SSA programs and guidance regarding current program or systems topics. 9

Based on our interviews with SSA employees, the Offices of Operations and Retirement
and Disability Policy have released policy instructions to all employees to ensure they
are aware of the economic recovery payments and how to handle inquiries from the
public. SSA established a central repository on PolicyNet that will be updated with
policies and procedures as they are released. In addition, SSA has scheduled training
for employees via Interactive Video Teletraining and Video on Demand.

At the time of our review, SSA had released draft policy instructions for comment. SSA
will incorporate the comments from various components into the final policy instructions.
SSA plans to develop additional policy instructions to address post-certification issues,
including nonreceipt, undeliverable mail, and other actions. To reduce the potential for
improper payments, we encourage SSA to develop and release these policies and
procedures as timely as possible.




9
    SSA, Program Operations Manual System (POMS), AO 03001.001.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)          5
PAYMENTS TO DECEASED BENEFICIARIES AND REPRESENTATIVE PAYEES

SSA will determine the OASDI and SSI recipients who are eligible for economic
recovery payments, certify them for payment, and provide Treasury with the information
to disburse the payments. After the beneficiaries have been certified to receive an
economic recovery payment, they will be unaffected by any subsequent determinations
or redetermination of their entitlement. 10 If SSA learns a beneficiary was deceased
before the certification date, the payment would be subject to Treasury reclamation.
However, during our review, we found SSA does not plan to initiate reclamation actions
for improper economic recovery payments made by electronic fund transfer (EFT) to
deceased beneficiaries and representative payees. SSA and Treasury will only take
actions to reclaim any check payments issued after death. Finally, SSA has not
determined how it will treat economic recovery payments issued to deceased
beneficiaries and representative payees who died after SSA certified the payments
but before they were received.

Deaths Occurring Before Certification of Payments

Normally, SSA processes a stop payment to request that Treasury reclaim payments
not due, including any checks or EFT payments issued after a beneficiary’s death or to
a representative payee who is deceased. 11 However, SSA stated that although it will
accept any EFT payments returned by banks or financial institutions, Treasury does
not have the authority to recover any economic recovery payments issued by EFT.
Therefore, SSA does not plan to request stop payments to Treasury for deceased
beneficiaries or representative payees who were issued an economic recovery payment
by EFT but died before the certification date.

To assess the potential impact of not initiating the reclamation of economic recovery
payments to deceased beneficiaries who died before certification, we determined
the approximate number of beneficiaries who would die during the average time
between beneficiaries’ deaths and SSA’s action to terminate benefits. About 2.2 million
beneficiaries die and are terminated from SSA’s payment records each year or about
6,000 per day. 12 Assuming it normally takes 2 weeks to process a death report, 13
we estimate about 84,000 beneficiaries would die over a 2-week period. As a result,
we estimate SSA may certify for entitlement about $21 million in economic recovery


10
     ARRA § 2201(b).
11
     SSA, POMS GN 02408.001.
12
 Annual Statistical Supplement to the Social Security Bulletin, March 2009, Table 6.F.2, and Annual
Report of the Supplement Security Income Program, May 2008, Table IV.B.3.
13
   SSA does not have information on the average time between beneficiaries’ deaths and SSA’s action
to terminate benefits. However, the Government Accountability Office (GAO) previously reported
the elapsed time from a beneficiary’s death to SSA’s action to terminate benefits is about 2 weeks.
GAO, Observations on Improving Distribution of Death Information (GAO-02-233T), November 8, 2001.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                  6
payments to deceased beneficiaries or their representative payees. 14 This $21 million
would provide 1 year of payments for approximately 3,500 SSI recipients. 15

Although SSA normally reclaims any payments issued after death, such authority does
not exist for the economic recovery payments. We encourage SSA to seek Treasury
authority to initiate reclamation of economic recovery payments issued by EFT to
deceased beneficiaries or representative payees who died before the certification date.

Deaths Occurring Between Certification and Receipt of Payments

We also found SSA needs to determine how it should treat economic recovery
payments issued to deceased beneficiaries and representative payees who die
after the payments were certified but before they were received. SSA and Treasury
developed a schedule to certify and disburse the economic recovery payment to
eligible beneficiaries. The economic recovery payment will be certified and disbursed to
OASDI beneficiaries on 1 of 4 days, based on the beneficiary’s current payment cycle. 16
The economic recovery payment for SSI recipients will be disbursed on the same day.
As depicted in the chart below, the elapsed time between the certification and payment
dates varied from 9 to 15 days.

                                                     SSA                  Treasury
        Type of             Estimated                                                     Elapsed
                                                 Certification            Payment
        Benefit            Beneficiaries                                                Time (Days)
                                                    Date                    Date
 OASDI - Cycle 1             24,000,000             April 27, 2009    May 7, 2009             10
 OASDI - Cycle 2              7,000,000             May 1, 2009       May 14, 2009            13
 OASDI - Cycle 3              7,000,000             May 6, 2009       May 21, 2009            15
 OASDI - Cycle 4              7,000,000             May 13, 2009      May 28, 2009            15
 SSI                          7,000,000              May 9, 2009      May 18, 2009             9
          Total             52,000,000

As we previously noted, about 6,000 beneficiaries die and are terminated from
SSA’s payment records each day. 17 As depicted in the chart below, we estimate an
additional $17.4 million in economic recovery payments will be disbursed to deceased
beneficiaries or representative payees between the dates of SSA’s certification and
Treasury’s payment. Some of these payments—both paper checks and EFTs—will
be subsequently returned to SSA. However, at the time of our review, SSA had not

14
     Represents 84,000 total beneficiary deaths x $250 per beneficiary.
15
     SSI Monthly Statistics, March 2009, Table 1.
16
  Each month, beneficiaries in Cycle 1 receive their recurring OASDI benefits on the 3rd day of the month,
Cycle 2 on the 2nd Wednesday, Cycle 3 on the 3rd Wednesday, and Cycle 4 on the 4th Wednesday.
17
  The average SSI monthly payment is $500. Annual Statistical Supplement to the Social Security
Bulletin, March 2009, Table 6.F.2, and Annual Report of the Supplement Security Income Program,
May 2008, Table IV.B.3.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                    7
finalized guidance on how to process these returned payments. Finally, it may serve
the beneficiaries’ best interests to initiate reclamation for payments disbursed to
deceased representative payees.

                              Number of              Payments                              Total
         Type of                                                        Elapsed
                             Beneficiary             After Death                        Payments
         Benefit                                                      Time (Days)
                           Deaths Per Day 18          Per Day 19                        After Death
 OASDI - Cycle 1                   2,760                 $690,000           10             $6,900,000
 OASDI - Cycle 2                     810                  202,500           13              2,632,500
 OASDI - Cycle 3                     810                  202,500           15              3,037,500
 OASDI - Cycle 4                     810                  202,500           15              3,037,500
 SSI                                 810                  202,500            9              1,822,500
           Total                   6,000             $1,500,000                         $17,430,000

PAYMENTS TO BENEFICIARIES WITHOUT SSNs

Auxiliary beneficiaries are children, widows, spouses, and parents who receive OASDI
benefits based on another worker’s earnings record. As such, the primary worker’s
SSN—not the auxiliary beneficiary’s SSN—is used to track the auxiliary beneficiary's
benefit payments on the MBR. 20 The Social Security Act requires as a condition for
receipt of benefits that an individual present satisfactory proof of an SSN or application
for assignment of an SSN. 21

SSA uses the SSN to control information that can affect a person’s entitlement to
benefits under the OASDI and SSI programs. To ensure payment accuracy, SSA
routinely matches this information to the MBR.

Prior Office of the Inspector General (OIG) audits 22 have determined the impact on
SSA’s programs when auxiliary beneficiaries do not have their own SSNs. Specifically,
when the auxiliary beneficiaries’ SSNs do not appear on the MBR, the value of the
Agency’s data matches to determine eligibility and payment amount is diminished. In

18
   We determined the number of deceased beneficiaries affected during each payment Cycle by
allocating the average beneficiary deaths per day to the applicable percentage of beneficiaries
eligible for economic recovery payments. For example, since 24 million (46 percent) of the 52 million
beneficiaries are scheduled to receive economic recovery payments in OASDI Cycle 1, we estimate
that 2,760 (46 percent) of the 6,000 beneficiary deaths will occur in this payment Cycle.
19
     Represents the number of beneficiary deaths per day x $250 per beneficiary.
20
     SSA commonly refers to the auxiliary beneficiary’s SSN as the Beneficiary’s Own Account Number.
21
     Social Security Act § 205(c)(2)(F), 42 U.S.C. § 405(c)(2)(F).
22
  Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have
Their Own Social Security Numbers (A-01-02-22006), September 2002; and Follow-up on the Impact
on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their Own
Social Security Numbers (A-01-07-17038), March 2008.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                    8
addition, SSA may not be aware of instances that affect an individual’s entitlement to
benefits. In its response, SSA agreed to take all feasible steps to add the SSNs to the
MBRs of all auxiliary beneficiaries receiving benefits.

To avoid duplicate economic recovery payments, SSA will perform data matches
between the (1) MBR and SSR and (2) RRB and VA. SSA plans to conduct the initial
match in May 2009 and periodic “catch up” matches for subsequent economic recovery
payments payable through December 2010.

According to SSA, about 13,566 beneficiaries who may be entitled to an economic
recovery payment do not have an SSN. This increases the risk of duplicate payments.
In addition, some of these beneficiaries may not be eligible for any payment because
they are (1) deceased, (2) incarcerated, (3) concurrently entitled to OASDI and SSI,
or (4) ineligible for benefits because of work and earnings. Finally, missing SSNs
increases the risk of duplicate payments for beneficiaries who are concurrently entitled
to RRB or VA benefits.

REPRESENTATIVE PAYEE ACCOUNTING OF ECONOMIC RECOVERY PAYMENTS

Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees to receive and manage these beneficiaries’
payments. 23 A representative payee may be an individual or an organization.

Representative payees are required to use the benefits they receive for the beneficiary’s
needs and in their best interests. They are responsible for keeping records and
reporting annually on the use of benefits by completing the Representative Payee
Report. This Report is used to monitor how the representative payees spent and/or
saved the benefits on the beneficiary’s behalf. 24

Approximately 4.7 million eligible beneficiaries have representative payees. 25 Under
ARRA, representative payees must use the economic recovery payments only for the
beneficiary entitled to the payment. 26 When completing the annual Representative
Payee Report, the total benefits paid during the reporting period must be completed.
During our review, we learned that SSA will not include economic recovery payments
on the annual Representative Payee Report.




23
     Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
24
  Social Security Act §§ 205(j)(3) and 1631(a)(2)(C), 42 U.S.C §§ 405(j)(3) and 1383(a)(2)(C);
20 C.F.R. §§ 404.2035, 404.2065, 416.635, and 416.665.
25
     Annual Statistical Supplement to the Social Security Bulletin, March 2009, Tables 5.L.1 and 7.E.4.
26
     ARRA § 2201(d).


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)                      9
However, we believe representative payees will report the economic recovery payment
on the annual Representative Payee Report because it represents funds received from
SSA. In addition, SSA has not yet notified representative payees how they should
report and account for the economic recovery payment. SSA plans to update the
frequently asked questions on its representative payee website when the economic
recovery payments are issued in May 2009. However, at the time of our review, no
additional actions were planned.

In addition to the information on the SSA website for representative payees, we believe
SSA needs to add an instruction for economic recovery payments to the Representative
Payee Reports. Without such guidance, it is likely the Representative Payee Reports
will not be accurately and consistently prepared. These errors and inconsistencies
may also result in unnecessary increases in SSA’s workloads to answer questions and
resolve exceptions resulting from differences in the amount of payments received and
reported.




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)   10
                                   Matters for Consideration
Under ARRA, SSA is mandated to certify for entitlement approximately $13.25 billion
in one-time economic recovery payments to 53 million beneficiaries to facilitate
Treasury’s disbursement of such payments within 120 days after the date of enactment.
At the time of our review, SSA had taken significant actions to identify eligible
beneficiaries and develop the necessary systems and policy changes to ensure
payments are disbursed in accordance with ARRA. To ensure SSA has the necessary
controls and procedures in place to prevent duplicate or erroneous payments and
further mitigate instances of fraud, waste, and abuse, we believe SSA needs to address
the following issues.

   Complete and document all systems requirements and related policies and
    procedures necessary for administration of the economic recovery payments.

   Seek Treasury authority to initiate reclamation activity or take other appropriate
    actions to recover economic recovery payments issued to deceased beneficiaries
    and representative payees who died before SSA certified the payments.

   Establish policy for economic recovery payments issued to deceased beneficiaries
    and representative payees who died after SSA certified the payments but before
    they were received.

   Reduce the potential for duplicate or improper payments to beneficiaries without
    SSNs.

   Notify representative payees about how to report the economic recovery payments.




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)     11
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – OIG Contacts and Staff Acknowledgments




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)
                                                                          Appendix A

Acronyms
ARRA               American Recovery and Reinvestment Act of 2009

EFT                Electronic Fund Transfer

GAO                Government Accountability Office

MBR                Master Beneficiary Record

OASDI              Old-Age, Survivors and Disability Insurance

OIG                Office of the Inspector General

POMS               Program Operations Manual System

RRB                Railroad Retirement Board

SSA                Social Security Administration

SSI                Supplemental Security Income

SSN                Social Security Number

SSR                Supplemental Security Record

Treasury           Department of the Treasury

VA                 Department of Veterans Affairs




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed the American Recovery and Reinvestment Act of 2009 (ARRA) and the
    Office of Management and Budget’s guidance on implementing ARRA.

   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, policies and procedures.

   Interviewed SSA employees from the Offices of Systems; Operations; Retirement
    and Disability Policy; and Budget, Finance and Management.

   Reviewed supporting documentation for SSA’s planned implementation of the
    economic recovery payments.

We performed our review in March and April 2009 in Baltimore, Maryland; and
Richmond, California. We conducted our review in accordance with the President’s
Council on Integrity and Efficiency’s 1 Quality Standards for Inspections.




1
 The President’s Council on Integrity and Efficiency was superseded by the Council of the Inspectors
General on Integrity and Efficiency with the passing of The Inspector General Reform Act of 2008.


Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)
                                                                          Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments
In addition to those named above:

   Wilfred P.K. Wong, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29143.




Economic Recovery Payments for Social Security and SSI Beneficiaries (A-09-09-29143)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
